         U.S. Department of Energy
         Office of Inspector General
         Office of Audit Services




Audit Report
Management Controls Over
Subcontract Administration by
the Argonne National Laboratory




OAS-M-04-01                            March 2004
MANAGEMENT CONTROLS OVER SUBCONTRACT
ADMINISTRATION BY THE ARGONNE NATIONAL LABORATORY

TABLE OF
CONTENTS



              Competition and Property Protection Practices

              Details of Finding ........................................................................1

              Recommendations and Comments.............................................4


              Appendices

              1. Objective, Scope, and Methodology ......................................6

              2. Prior Reports ..........................................................................8

              3. Management Comments........................................................9
COMPETITIVE AND PROPERTY PROTECTION PRACTICES

Competition and Property   Argonne National Laboratory (Argonne) did not always ensure
Protection                 adequate competition when procuring goods and services, awarded
                           contracts to sources that lacked necessary credentials or experience that
                           would justify sole source selections, and did not adequately protect
                           Government property in the hands of subcontractors.

                                                    Solicitation and Award

                           Argonne used sole source contracts in 123 of the 198 (62 percent)
                           subcontracts over $100,000 active during Fiscal Year (FY) 2002. We
                           judgmentally selected 28 sole source contracts for review and found
                           that 14 were not adequately supported. In particular, the justifications
                           to support use of sole-source contracting did not contain sufficient facts
                           or rationale to demonstrate that the qualifications of the subcontractor
                           were unique. While contract files generally supported that the firm or
                           individual selected was capable of performing the work, documentation
                           was not sufficient to establish that it was the only source of the goods or
                           services. On the contrary, we observed that certain procurements were
                           for commonly available services such as marketing and information
                           technology support.

                           Since the early 1990s, the Office of Inspector General (OIG) has
                           identified similar problems with competition at Argonne in several
                           audits. For example, our report on Subcontract Administration at
                           Argonne National Laboratory (ER-B-93-06, August 1993), noted that
                           Argonne awarded sole source contracts that were not adequately
                           documented. In that report, we recommended that the Department of
                           Energy (Department) ensure that Argonne award sole source contracts
                           only when competition was not practical and use advertising to ensure
                           fair and effective competition. We also questioned aspects of
                           Argonne's sole source subcontracting in our subsequent audit of
                           Support Services Subcontracts at Argonne National Laboratory
                           (DOE/IG-0416, December 1997).

                           The Department partially concurred with our previous audit
                           recommendations, but stated that the Laboratory had established and
                           implemented numerous procedures for assuring fair and effective
                           competition throughout its procurement system. However, during the
                           current audit, we noted that barriers to competition persist.
                           Specifically, we determined that the Laboratory had not advertised any
                           of the 198 contracts we reviewed. Argonne management officials told




Page 1                                                                           Details of Finding
                 us that they did not believe that such action was appropriate because the
                 costs of advertising, in terms of time and money, outweighed expected
                 benefits.

                 During our review, we identified an example where the contractor's
                 qualifications and/or experience did not justify the use of sole source
                 contracts. Specifically, in one sole source selection, a contract was
                 awarded to perform marketing work and assist in licensing an
                 environmental test process developed at Argonne. The contract was
                 awarded even though the source lacked specialized marketing or other
                 unique skills. After 3 years and expenditures of $500,000, Argonne
                 asked the subcontractor to prepare a summary of work performed and
                 accomplishments. This summary revealed that the contractor had not
                 completed many of the tasks necessary to accomplish the stated
                 objective. Specifically, only one license for the process had been
                 obtained and that was from an existing Argonne contractor that was
                 already using the technology. Prior to actually receiving the summary,
                 however, Argonne terminated the contract with 7 months and $141,000
                 remaining.

                                         Property Accountability

                 Argonne also did not adequately protect Government property in the
                 hands of subcontractors. Specifically, it did not independently identify
                 property purchased by subcontractors with Government funds, track or
                 periodically inventory such property, or ensure that it was clearly
                 identified as Government-owned property. Rather, Argonne relied on
                 annual disclosures in which subcontractors identified Government
                 property held. Based on these disclosures, Argonne recorded the
                 property in a tracking system and issued property tags. Argonne did
                 not, however, reconcile these annual disclosures with purchase records
                 of property acquired by the subcontractors, nor did it periodically
                 inventory such property. Had it done so, it may have discovered
                 problems such as the $300,000 in undisclosed property that we
                 identified and confirmed during our testing of selected subcontracts.


Monitoring and   Although its prime contract and the Department of Energy Acquisition
Performance      Regulation (DEAR) required competitive selection of subcontractors to
                 the maximum extent practical, Argonne's Procurement Manual did not
                 stress the requirement to adequately justify sole-source actions or
                 require the publication of procurement actions. Departmental officials
                 contributed to competition problems at the Laboratory by approving


Page 2                                                                Details of Finding
                       Argonne's Procurement System even though it did not contain
                       safeguards needed to correct excessive and improper use of sole-source
                       actions. In spite of the unusually persistent nature of these problems
                       spanning a 10 year period, the Department also had not taken action to
                       incorporate specific and competition-focused performance requirements
                       in Argonne's contract.

                       In addition, Argonne did not devote sufficient attention to establishing
                       and documenting controls over Government property purchased and
                       maintained by subcontractors. Although the Laboratory was required
                       by its contract to protect Government property in the hands of its
                       subcontractors, its Property Management Manual did not assign the
                       responsibility of notifying property management officials of the
                       acquisition or disposition of property purchased or held by
                       subcontractors. Based on interviews with Argonne employees, we
                       observed a lack of communication regarding responsibilities for
                       identifying such property and ensuring that it had been properly
                       recorded. For example, although one technical representative had
                       knowledge of $300,000 of unrecorded Government property in the
                       hands of three subcontractors, he did not notify Property Management
                       because it was not required by his operating manual and he assumed
                       someone else was responsible. We also noted that the Department had
                       not established expectations in the form of performance measures
                       regarding the management of Government owned property at Argonne.


Competition Benefits   In FY 2002, Argonne had nearly $54 million in active sole source
                       contracts. Without a rigorous procurement system to ensure that
                       opportunities for competitive awards are maximized and sole source
                       purchases are adequately justified, the Department cannot determine
                       that Argonne is procuring goods and services in the most efficient
                       manner. Open competition is a key tool for the Government to obtain
                       the lowest possible price and the highest quality goods or services. In
                       addition, more effective advertising of procurement actions helps to
                       ensure that the greatest possible number of qualified vendors have
                       access to Federally-funded contracts. The lack of a current and
                       complete property tracking system increases the risk that this property
                       will not be properly safeguarded and recovered at completion of the
                       contract.




Page 3                                                                      Details of Finding
RECOMMENDATIONS       To ensure that Argonne is procuring goods and services in accordance
                      with the terms of its contract and Department policies, we recommend
                      that the Manager, Chicago Operations Office ensure that:

                         1. Sole source procurement actions are adequately justified and
                            documented;

                         2. Whenever practical, full and open competition is used for
                            Federally-funded procurements;

                         3. An adequate method for identifying, tagging, and tracking
                            Government property purchased by subcontractors is
                            established; and,

                         4. Argonne's performance measures are modified to include
                            elements specific to procurement competition and subcontractor
                            property management.


MANAGEMENT REACTION   Management generally concurred with the report's recommendations.
                      However, management's comments pointed out that Argonne purchases
                      are not Federal procurements, and are not directly subject to the Federal
                      Acquisition Regulations. Rather, the Laboratory is required to satisfy
                      the terms and conditions of its contract that requires the contractor to,
                      among other things, apply the best in commercial purchasing practices
                      and to ensure the use of effective competitive techniques. Specifically,
                      management pointed out that the contract does not require the
                      Laboratory to use advertising to ensure fair and open competition.
                      Additionally, management concluded that Argonne is in full
                      compliance with the competition requirements applicable to
                      subcontracts of its contract with the Department. Regarding the
                      adequacy of contractors' qualifications and experience as sole source
                      justifications, management stated that the marketing contractor cited in
                      our report did have the prerequisite experience and that the contract was
                      not terminated because of inferior work on the part of the contractor.
                      While management believed that Argonne was in compliance with the
                      terms of its contract, Area Office officials told us that they recognized
                      that the improvements were needed and committed to review and
                      monitor Argonne's procurement activity and to minimize its use of sole
                      source contracting.




Page 4                                                  Recommendations and Comments
AUDITOR COMMENTS   We agree that Argonne purchases are not directly subject to the Federal
                   Acquisition Regulations. However, advertising can be an effective tool
                   for ensuring fair and open competition and we are concerned that
                   Argonne did not advertise any of the 198 subcontracts active during
                   FY 2002. In this regard, we noted that in 2003 a peer review chartered
                   by the Department's Office of Procurement and Assistance
                   Management found that competition for awards was an area of concern.
                   Specifically, the peer review questioned how Argonne could determine
                   prices were fair and reasonable without outside competition for awards.
                   Furthermore, the peer review found that Argonne's practice of utilizing
                   potential contractors supplied by the requestor did not meet the
                   definition of competition.

                   Finally, regarding management's position that the source awarded the
                   marketing contract referred to in our report had the prerequisite
                   experience to justify a sole source award, our review of the contractor's
                   resume indicates that the source did not have specialized experience or
                   knowledge and was not uniquely qualified. Problems in this area are
                   not unique, and as noted in the previously discussed peer review,
                   Argonne was previously cited for problems related to inadequate
                   justification and validity of sole source awards. Specifically, the peer
                   review recommended that Argonne review the adequacy of sole source
                   justifications rather than the mere presence of it. In the case of the
                   marketing contractor, the only support for the contention that the
                   contractor had knowledge of the technology to be marketed was a hand
                   written note to the file. Such assertion, however, was not supported by
                   information in the contractor's resume.

                   We also made a number of technical changes to our report based on
                   management's comments. Based on these changes and because of the
                   lengthy nature of the comments, management's technical comments
                   have been omitted from the report. We discussed this issue with
                   officials from the Argonne Area Office on February 4, 2004.




Page 5                                                                          Comments
Appendix 1

OBJECTIVE     The objective of this audit was to determine whether Argonne was
              procuring goods and services in accordance with Government policies
              and best business practices.


SCOPE         The audit was performed between May 2003 and February 2004 at
              Argonne and Chicago. The scope of the audit included subcontracts
              with values greater than $100,000 that were active or were in the
              closeout phase during FY 2002.


METHODOLOGY   To accomplish our objective, we:

                   •   Reviewed applicable laws and regulations pertaining to
                       procurement management and property management. We also
                       reviewed audit reports by the Office of Inspector General and
                       the General Accounting Office;

                   •   Reviewed Argonne policies and procedures related to
                       procurement management and property management;

                   •   Reviewed the Government Performance and Results Act of
                       1993 and determined if performance measures had been
                       established;

                   •   Performed detailed tests on 40 active subcontracts and 20
                       inactive subcontracts with values over $100,000;

                   •   Reviewed property records and related documentation, as well
                       as, invoices received and paid for by Argonne accounting;

                   •   Held discussions with officials and personnel from Argonne
                       and Chicago; and,

                   •   Reviewed past and current Departmental assessments of
                       Argonne's Procurement and Property Management systems.

              The audit was conducted in accordance with generally accepted
              Government auditing standards for performance audits and included
              tests of internal controls and compliance with laws and regulations to




Page 6                                         Objective, Scope, and Methodology
Appendix 1 (continued)

                     the extent necessary to satisfy audit objectives. Because our review
                     was limited, it would not necessarily have disclosed all internal control
                     deficiencies that may have existed at the time of the audit. We relied on
                     computer processed data to accomplish our audit and through limited
                     testing, established the reliability of data we considered critical to
                     satisfying our objective.

                     An exit conference was held with Chicago personnel on
                     February 4, 2004.




Page 7                                                Objective, Scope, and Methodology
Appendix 2


                                         PRIOR REPORTS


         •   Management of Sensitive Equipment at Selected Locations, (DOE/IG-606, June 2003).
             The audit found that excessive effort on the part of management was necessary to locate
             virtually all of the items of sensitive equipment sampled. Recommendations were made
             to improve the identification and accounting of sensitive property in the hands of
             contractors. Management generally agreed with the findings and recommendations and
             began initiating corrective actions.

         •   Support Services Subcontracts at Argonne National Laboratory, (DOE/IG-0416,
             December 1997). The audit found that four major Headquarters program offices were
             acquiring support services through subcontracts awarded by Argonne during
             Fiscal Year 1996. Recommendations were made to discontinue this practice, and
             establish controls to assure program managers acquire support services through normal
             Departmental procurement processes. The program offices agreed with the audit
             findings and recommendations.

         •   Subcontract Administration at Argonne National Laboratory, (DOE/IG ER-B-93-06,
             August 1993). The audit found that Argonne did not fully comply with applicable
             Department of Energy Acquisition Regulation and contract terms for the awarding and
             administering of subcontracts. Specifically, Argonne did not use fair and open
             competition, allowed unauthorized personnel to purchase goods and services, did not use
             adequate proposal analysis to negotiate prices, and contract closures were not timely.
             Management generally concurred with the findings and recommendations with the
             exception of the proposal analysis improvement recommendation.




Page 8                                                                                     Prior Reports
Appendix 3




Page 9       Management Comments
Appendix 3 (continued)




Page 10                  Management Comments
                                                                              IG Report No.: OAS-M-04-01

                                    CUSTOMER RESPONSE FORM


The Office of Inspector General has a continuing interest in improving the usefulness of its products. We
wish to make our reports as responsive as possible to our customers' requirements, and, therefore, ask that
you consider sharing your thoughts with us. On the back of this form, you may suggest improvements to
enhance the effectiveness of future reports. Please include answers to the following questions if they are
applicable to you:

1. What additional background information about the selection, scheduling, scope, or procedures of the
   audit would have been helpful to the reader in understanding this report?

2. What additional information related to findings and recommendations could have been included in this
   report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall message more
   clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues discussed in this
   report which would have been helpful?

Please include your name and telephone number so that we may contact you should we have any questions
about your comments.

Name _____________________________             Date __________________________

Telephone _________________________            Organization ____________________

When you have completed this form, you may telefax it to the Office of Inspector General at (202) 586-
0948, or you may mail it to:

                                     Office of Inspector General (IG-1)
                                           Department of Energy
                                          Washington, DC 20585

                                        ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of Inspector General,
please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                            following address:


                  U.S. Department of Energy, Office of Inspector General, Home Page
                                       http://www.ig.doe.gov

                    Your comments would be appreciated and can be provided on the
                           Customer Response Form attached to the report.
